CERTIFICATE OF COMPLIANCE
No. 20-366
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL.,
APPELLANTS
V.

STATE OF NEW YORK, ET AL.
As required by Supreme Court Rule 33.1(h), I certify that the Brief of National School
Boards Association, et. al., as Amici Curiae in Support of Appellees contains 7,244
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 13, 2020.

Francisco M. Negrón, Jr.

